HHS/OIG, Audit -"Review of Medicaid Home Health Payments Rendered During a Medicare Covered
Stay For Dual Eligible Beneficiaries State of Connecticut October 1, 2001 Through September 30, 2003,"(A-01-04-00011)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Home Health Payments Rendered During a Medicare Covered Stay For Dual Eligible
Beneficiaries State of Connecticut October 1, 2001 Through September 30, 2003," (A-01-04-00011)
September 1, 2005
Complete
Text of Report is available in PDF format (408 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the Connecticut
Department of Social Services (the State agency) made Medicaid payments for home health care services
provided to dual eligible beneficiaries that duplicated payments already reimbursed through a Medicare
prospective payment system.  For Federal fiscal years 2002 and 2003, we identified 3,453 Medicaid
claims totaling $1.8 million ($900,000 Federal share) for home health care services that overlap
and may have duplicated reimbursement already made under the Medicare program.  We recommended
that the State agency educate its provider community on proper billing practices, consider conducting
prepayment edits of selected claims, work with the Medicare regional home health intermediary to
develop controls for identifying and recouping Medicaid payments that should have been covered under
Medicare, and initiate action to recover the potential overpayments identified in this audit.  The
State agency agreed with our recommendations for educating providers and working with CMS on recovery
actions but disagreed that it did not have proper safeguards to ensure that Medicaid was the payer
of last resort.